No. 20-1531
lNTHE

$Upreme <!Court of toe Wniteb $!ates
THE NORTH AMERICAN COAL CORPORATION,

Petitioner,
V.

U.S.

ENVIRONMENTAL PROTECTION AGENCY AND
MICHAEL REGAN, ADMINISTRATOR OF THE U.S.
ENVIRONMENTAL PROTECTION AGENCY,

Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Reply to
Briefs in Opposition in The North American Coal Corporation v. U.S. Environmental

Protection Agency, No. 20-1531, complies with the word limitations, as it contains
3,000 words.
I declare under penalty of perjury that the foregoing i

Date: August 24, 2021

21c

